                          U.S. ELECTION ASSISTANCE COMMISSION
                                   OFFICE OF INSPECTOR GENERAL
                                 1225 New York Ave. NW - Suite 1100
                                       Washington, DC 20005




                                                                       December 31, 2007



To:       Donetta Davidson
          Chair, U.S. Election Assistance Commission

From:     Curtis W. Crider
          Inspector General

Subject: Investigation of Allegations of Fraudulent Certification of Election Equipment
         by SysTest Labs, Incorporated

        This memorandum transmits an Investigative Report entitled “Fraudulent
Certification of Election Equipment.” The Department of the Interior, Office of Inspector
General, conducted the investigation at my request because the Election Assistance
Commission (EAC), Office of Inspector General, has no investigators.

        I requested the investigation based on an anonymous complaint that that SysTest
Labs, Incorporated, had falsified the initial and re-certifications of the AutoMark
Technical Systems, LLC, Voter Assist Terminal. The complainant alleged that the false
certifications were the result of SysTest allowing AutoMark owners and employees of
AutoMark to participate and manipulate data in what was supposed to be independent
testing. The complainant also alleged that Ricoh Electronics, Inc., the manufacturer of
the AutoMark Voter Assist Terminal, and Diebold Election Systems, Inc., which had
recently partnered with AutoMark, were knowingly distributing inferior AutoMark Voter
Assist Terminals. Consequently, the allegation indicated that funds provided under the
Help America Vote Act may have been used to purchase equipment that was improperly
certified by SysTest Labs.

        The investigation determined that the initial and re-certifications of the AutoMark
Voter Assist Terminal by SysTest were conducted in accordance with the National
Association of State Election Directors program. Also, the investigation found no
evidence indicating that SysTest Lab or AutoMark employees fabricated test data even
though AutoMark employees were present and left unattended for short periods of time
while the Voter Assist Terminal was being tested. Finally, the investigation did not
develop any evidence that supported the allegation that Richoh and Diebold distributed
inferior AutoMark Voter Assist Terminals.
        In response to our concerns about manufacturer access to voting equipment
during testing, the EAC included in its draft manual “Voting System Test Laboratory
Accreditation Program Manual (Manual) the following language:

       2.11.1   Testing Independence. Consistent with the requirements of this Manual,
                only the VSTL identified on a voting system’s application form may test
                or oversee the testing of that system. Under no circumstances may a
                manufacturer perform or participate in any testing which will serve as the
                basis of an EAC certification. Additionally, VSTL’s shall ensure that
                manufactures’ do not have access to a system under test unless
                accompanied and monitored by a VSTL representative.

       We believe that the changes in the Manual adequately address our concerns.
Therefore, no response to this memorandum is required. However, if you have any
questions or concerns about this report, please do not hesitate to contact me at (202) 566-
3125.
